Office of Audits
Report No. AUD-11-007


Material Loss Review of Premier Bank,
Jefferson City, Missouri




                                  May 2011
                                      Executive Summary

                                      Material Loss Review of Premier Bank,
                                      Jefferson City, Missouri
                                                                                     Report No. AUD-11-007
                                                                                                  May 2011

Why We Did The Audit
On October 15, 2010, the Missouri Division of Finance (MDF) closed Premier Bank (Premier), Jefferson
City, Missouri, and appointed the FDIC as receiver. On November 18, 2010, the FDIC notified the
Office of Inspector General (OIG) that Premier’s total assets at closing were $1 billion, and the estimated
loss to the Deposit Insurance Fund (DIF) was $405 million. As required by section 38(k) of the Federal
Deposit Insurance Act, and as amended by the Dodd-Frank Wall Street Reform and Consumer Protection
Act, the OIG conducted a material loss review of the failure of Premier.

The audit objectives were to (1) determine the causes of Premier’s failure and the resulting material loss
to the DIF and (2) evaluate the FDIC’s supervision of Premier, including the FDIC’s implementation of
the Prompt Corrective Action (PCA) provisions of section 38.


Background
Premier was a state-chartered nonmember bank insured by the FDIC on May 15, 1995. The bank was
headquartered in Jefferson City, Missouri, which is the state capital. The bank operated eight offices in
Missouri and one office in Grapevine, Texas. Premier was wholly owned by Premier Bancshares, Inc.
(PBI), a one-bank holding company. Ownership was widely held, with no shareholder owning or
controlling 5 percent or more of the holding company’s stock. In 2003, Bank management began
emphasizing loan growth with a focus on commercial real estate (CRE), primarily acquisition,
development, and construction (ADC) loans. Growth was supported by brokered deposits and
borrowings. The bank’s growth was also supported by capital injections from PBI.


Audit Results

Causes of Failure and Material Loss

Premier’s failure was attributed to the Board of Directors and management’s growth strategy that centered
on CRE and ADC lending, which, absent prudent risk management practices, increased the bank’s
vulnerability to adverse economic conditions. To fund its growth, the bank became increasingly reliant
on wholesale funding sources, the availability of which was critical to the bank’s ability to maintain a
strong financial position. Ultimately, the flaws in the bank’s strategy and lending deficiencies were
exposed when the real estate market began to weaken in 2007 and led to significant loan-related losses,
poor earnings, and the erosion of the bank’s capital as market conditions rapidly deteriorated. Premier
engaged in various efforts to diversify its portfolio, address weaknesses, and raise additional capital
following the downturn. However, the bank’s efforts proved unsuccessful, and MDF closed the bank on
October 15, 2010.

The FDIC’s Supervision of Premier Bank

The FDIC and the MDF conducted timely examinations of Premier and monitored its condition through
periodic offsite analysis and contacts. The FDIC and state examinations of Premier consistently
identified key risks associated with its growth strategy and increasing reliance on wholesale funding.
Prior to 2007, the bank was assigned satisfactory ratings, and neither the FDIC nor the MDF considered


                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Premier Bank,
                                      Jefferson City, Missouri
                                                                                     Report No. AUD-11-007
                                                                                                  May 2011

Premier to be a cause for significant supervisory concern based on its solid financial condition. However,
supervisory concern increased in 2007 when the downturn in the real estate market resulted in a dramatic
rise in nonperforming assets and a considerable deterioration in the bank’s overall financial condition.
Accordingly, the FDIC and the MDF began to downgrade the bank’s composite and component ratings in
2007, and the MDF imposed an informal supervisory enforcement action. After the 2007 examination,
the FDIC and the MDF closely monitored Premier’s condition by conducting onsite examinations every 6
months. The increased supervisory attention led to further downgrades and the issuance of a formal
enforcement action in 2009. Despite Premier’s efforts to address its deficiencies, the bank’s financial
condition became critically deficient.

Recognizing that Premier’s financial condition and markets were generally favorable during earlier
examinations, the FDIC could have placed greater emphasis on Premier’s increasing risk profile in 2006.
Doing so may have resulted in downgrading the bank’s supervisory ratings sooner and pursuing an
informal enforcement action earlier. A more proactive supervisory approach may have influenced the
bank to curb its CRE and ADC lending, increase its capital levels, and strengthen risk management
controls before real estate markets deteriorated. With respect to the issues discussed in this report, the
FDIC has taken a number of actions to increase supervisory attention to banks that have risk profiles
similar to Premier, including instituting a training initiative on forward-looking supervision and issuing
additional supervisory guidance on CRE and ADC concentrations, appraisals, and funds management.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner.

Management Response

The Director, Division of Risk Management Supervision (RMS), provided a written response, dated
May 12, 2011, to a draft of the report. In the response, RMS reiterated the OIG’s conclusions regarding
the causes of Premier’s failure. With regard to our assessment of the FDIC’s supervision of Premier,
RMS’s response discussed the number of examinations and visitations and the offsite monitoring
conducted between 2006 and 2010 described in the report. Further, RMS’s response reiterated
supervisory actions taken in response to the deterioration in Premier’s asset quality and overall condition,
which started in 2007. As discussed in the report, supervisory actions included initiating a 6-month
examination cycle and issuing a cease and desist order that included a provision requiring Premier to
submit a plan to reduce the bank’s brokered deposits. Further, RMS referenced guidance that the FDIC
has issued to re-emphasize the importance of robust credit risk-management practices for institutions with
concentrated CRE exposures and set forth broad supervisory expectations. RMS also referenced FDIC
guidance issued for institutions, such as Premier, with concentrated CRE/ADC lending and reliance on
non-core funding.




                                  To view the full report, go to www.fdicig.gov
                               Contents
                                                                    Page


Background                                                            2

Causes of Failure and Material Loss                                   3
  Board and Management’s Growth Strategy                              3
  Risk Management Practices                                           6
  Funding Strategy                                                    8

The FDIC’s Supervision of Premier                                    10
  Supervisory History                                                10
  Supervisory Response to Key Risks                                  11
  Supervisory Lessons Learned                                        15
  Implementation of PCA                                              15

OIG Evaluation of Corporation Comments                               17

Appendices
  1. Objectives, Scope, and Methodology                              19
  2. Glossary of Terms                                               22
  3. Acronyms                                                        27
  4. Corporation Comments                                            28

Tables
   1. Financial Information for Premier, 2005 to 2010                 2
   2. Premier’s CRE and ADC Concentrations Compared to                5
      Peer Group
  3. Premier’s Adversely Classified Assets and ALLL, 2006 to 2010     8
  4. Premier’s Examination History, 2006 to 2010                     11
  5. Premier’s Capital Levels Relative to PCA Thresholds             16

Figures
   1. Premier’s Loan Composition, 2004 to 2009                        3
   2. Premier’s Loan and Lease Charge-offs, 2007 to 2010              5
   3. Premier’s Net Non-Core Funding Dependency Ratio, 2004 to        9
      2009
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, Virginia 22226                                           Office of Inspector General


DATE:                                           May 18, 2011

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Risk Management Supervision


                                                /Signed/
FROM:                                           Mark F. Mulholland
                                                Deputy Assistant Inspector General for Audits

SUBJECT:                                        Material Loss Review of Premier Bank, Jefferson City,
                                                Missouri (Report No. AUD-11-007)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, and as amended
by the Dodd-Frank Wall Street Reform and Consumer Protection Act (the Financial
Reform Act), the Office of Inspector General (OIG) conducted a material loss review
(MLR) of the failure of Premier Bank (Premier), Jefferson City, Missouri. The Missouri
Division of Finance (MDF) closed the institution on October 15, 2010 and appointed the
FDIC as receiver. On November 18, 2010, the FDIC notified the OIG that Premier’s
total assets at closing were $1 billion, and the estimated loss to the Deposit Insurance
Fund (DIF) was $405 million. The estimated loss exceeds the $200 million MLR
threshold for losses occurring between January 1, 2010 and December 31, 2011, as
established by the Financial Reform Act.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate Federal banking agency shall make a written report to that agency. The
report is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of this material loss review were to (1) determine the causes of Premier’s
failure and the resulting material loss to the DIF and (2) evaluate the FDIC’s supervision
of Premier, including the FDIC’s implementation of the PCA provisions of section 38 of
the FDI Act. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
MLRs, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more comprehensive reviews of specific aspects of
the FDIC’s supervision program and make recommendations as warranted.1

1
 A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.
Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms,
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System (UFIRS), otherwise known as the CAMELS ratings.
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.

We note that, in conjunction with other organizational changes made to enhance the
FDIC’s ability to carry out its new and enhanced responsibilities under the Financial
Reform Act, the Division of Supervision and Consumer Protection (DSC) became the
Division of Risk Management Supervision effective February 13, 2011. As a result of
the timing of our review and draft report issuance, we refer to DSC throughout this
report.


Background
Premier was a state-chartered nonmember bank insured by the FDIC on May 15, 1995.
The bank was headquartered in Jefferson City, Missouri, which is the state capital. The
bank operated eight offices in Missouri and one office in Grapevine, Texas. Premier was
wholly owned by Premier Bancshares, Inc., (PBI) a one-bank holding company.
Ownership was widely held, with no shareholder owning or controlling 5 percent or more
of the holding company’s stock. In 2003, Bank management began emphasizing loan
growth with a focus on commercial real estate (CRE), primarily acquisition,
development, and construction (ADC) loans. Growth was supported by brokered
deposits and borrowings. The bank’s growth was also supported by capital injections
from PBI. Table 1 provides details on Premier’s financial condition as of June 2010 and
for the 5 preceding calendar year ends.

Table 1: Financial Information for Premier, 2005 to 2010
Financial Measure
       ($000)           Jun-10       Dec-09          Dec-08      Dec-07      Dec-06      Dec-05
Total Assets            1,182,738    1,256,121       1,523,574   1,578,586   1,167,953    735,951
Total Loans               688,133      972,105       1,220,840   1,347,535   1,007,535    624,153
Total Deposits          1,028,265    1,071,209       1,232,925   1,315,930   1,009,877    605,085
Brokered Deposits          70,715      161,866         365,993     299,933     197,337    205,154
FHLB Borrowings            128,00      128,000         153,800      89,800      41,800     49,800
Net Income (Loss)        (25,141)     (79,666)        (31,992)       3,104       7,712      5,302
Source: Uniform Bank Performance Reports (UBPR) for Premier.




                                                 2
Causes of Failure and Material Loss
Premier’s failure was attributed to the institution’s Board of Directors (Board) and
management’s growth strategy that centered on CRE and ADC lending, which, absent
prudent risk management practices, increased the bank’s vulnerability to adverse
economic conditions. To fund its growth, the bank became increasingly reliant on
wholesale funding sources, the availability of which was critical to the bank’s ability to
maintain a strong financial position. Ultimately, the flaws in the bank’s strategy and
lending deficiencies were exposed when the real estate market began to weaken in 2007
and led to significant loan-related losses, poor earnings, and the erosion of the bank’s
capital as market conditions rapidly deteriorated. Premier engaged in various efforts to
diversify its portfolio, address weaknesses, and raise additional capital following the
downturn. However, the bank’s efforts proved unsuccessful, and the MDF closed the
bank on October 15, 2010.

Board and Management’s Growth Strategy

Premier’s business model centered on rapid asset growth. Specifically, between
December 2004 and December 2007, the bank’s loan portfolio increased from about
$391 million to $1.35 billion, with ADC loans increasing by 350 percent during this
period. Figure 1 illustrates Premier’s loan composition, which by 2005, consisted
primarily of CRE and ADC loans.

Figure 1: Premier’s Loan Composition, 2004 to 2009
                                     $1,500

                                                   All Other Loans
                                                   Other CRE
 Gross Loans and Leases (Millions)




                                     $1,250                                         $279
                                                   ADC
                                                                                            $299
                                     $1,000
                                                                      $219         $366              $221

                                      $750                                                  $370
                                                                      $256
                                                                                                     $343
                                                            $151
                                      $500
                                                            $196                   $703
                                               $106
                                                                      $532                  $552
                                      $250     $130                                                  $408
                                                            $277
                                               $155
                                        $0
                                              Dec-04      Dec-05     Dec-06       Dec-07   Dec-08   Dec-09
                                                                       Year Ended

Source: UBPRs for Premier.

Premier grew by expanding its market presence throughout Missouri. The bank also
opened a branch in Texas. The bank’s expansion strategy centered on finding and hiring
experienced personnel from competitors in other locales and opening new branches once


                                                                              3
they did so. Although the Board and management operated without a written strategic
plan during its growth period, the Board and management held strategic planning
sessions semi-annually. In 2006 and 2007, the bank also purchased over $230 million in
ADC loan participations, many of which were originated outside of the bank’s traditional
market areas. Management believed these out-of-market participations decreased the
overall risk in the loan portfolio through geographic diversification. However, the bank’s
rapid increase in ADC loans, through both originations and participations, drastically
increased the bank’s concentration levels, and, by extension, the bank’s risk profile.
Further, as discussed later, management did not institute sound risk management
practices commensurate with the bank’s loan portfolio.

In December 2006, the Federal banking agencies issued guidance entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance), that reinforced existing regulations and guidelines for real estate
lending and safety and soundness.2 The Joint Guidance focuses on those CRE loans for
which cash flow from real estate is the primary source of repayment (i.e., ADC lending).
The guidance was issued because the agencies had observed that CRE concentrations had
been rising and could create safety and soundness concerns in the event of a significant
downturn.

The Joint Guidance states that rising CRE concentrations can expose institutions to
unanticipated earnings and capital volatility in the event of adverse changes in the general
CRE market. Earlier supervisory guidance emphasized that ADC lending is a highly
specialized field with inherent risks that must be managed and controlled to ensure that
this activity remains profitable.3 DSC’s Risk Management Manual of Examination
Policies (Examination Manual) also states that an institution’s Board is responsible for
establishing appropriate risk limits, monitoring exposure, and evaluating the effectiveness
of the institution’s efforts to manage and control risk. As discussed below, Premier failed
to effectively manage and control risk associated with its CRE and ADC portfolios.

Due to the risks associated with CRE and ADC lending, regulators consider institutions
with significant CRE and ADC concentrations to be of greater supervisory concern. The
Joint Guidance defines institutions that may be identified for further supervisory analysis
of the level and nature of their concentration risk as those reporting loans for
construction, land and development, and other land (i.e., ADC) representing 100 percent
or more of total capital; or institutions reporting total CRE loans representing 300 percent
or more of total capital, where the outstanding balance of CRE has increased by 50
percent or more during the prior 36 months. As shown in Table 2, Premier’s CRE and
ADC loan concentrations consistently exceeded these supervisory thresholds and the
bank’s peer group averages in the years preceding its failure.



2
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).
3
  Financial Institution Letter (FIL)-110-98 entitled, Internal and Regulatory Guidelines for Managing Risks
Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.


                                                    4
Table 2: Premier’s CRE and ADC Concentrations Compared to Peer Group
                         CRE Loans as a               ADC Loans as a
                    Percentage of Total Capital  Percentage of Total Capital
  Year Ending        Premier        Peer Group    Premier        Peer Group
        2004                    554                        331                         295             81
        2005                    600                        358                         344             104
        2006                    682                        390                         454             136
        2007                    608                        405                         396             147
        2008                    663                        421                         397             139
        2009                   1,319                       386                         715             98
Source: UBPRs for Premier.
Note: The increase in CRE and ADC loan concentrations as a percentage of total capital in 2008 and 2009
was attributable to a decrease in capital rather than an increase in CRE or ADC loans. Also, we included
owner-occupied properties in CRE loan totals when computing percentages of total capital even though the
2006 Joint Guidance specifically excludes such properties because UPBRs prior to 2007 did not breakout
those amounts. Premier’s non-owner occupied CRE as a percentage of the institution’s total capital equaled
557, 571, and 1,116 percent for the years ended 2007 though 2009, respectively.

The Board and management implemented a more conservative lending culture in mid-
2007. However, the bank’s ability to effect improvement in its condition was limited by
the poor quality of the loan portfolio and weak real estate market. The drastic increase in
non-performing assets ultimately led to an increase in recognized loan losses that
depleted earnings and eroded capital. Specifically, Premier’s highly concentrated CRE
and ADC lending strategy led to a $131 million increase in the bank’s adversely
classified assets between the 2006 and 2007 examinations. Further, the bank charged-off
an average of over $30 million in loans annually after 2007. As reflected in Figure 2,
ADC loans accounted for over 60 percent of total charge-offs between 2007 and 2010.

Figure 2: Premier’s Loan and Lease Charge-offs, 2007 to 2010
                                             (Dollars in millions)



                        $22,079




    $9,378
                                                                                             $61,325

             $6,713




                        ADC loans                             1-4 Family Residential
                        Commercial & Industrial Loans         All Other Loans




Source: Reports of Condition and Income (Call Reports) for Premier.



                                                          5
Risk Management Practices

The Joint Guidance states that concentrations in CRE lending, coupled with weak loan
underwriting and depressed CRE markets, contributed to significant credit losses in the
past. According to the Joint Guidance:

      strong risk management practices are an important element of a sound CRE
       lending program, particularly when an institution has a concentration in CRE
       loans;

      financial institutions with CRE concentrations should ensure that risk
       management practices appropriate to the size of the portfolio, as well as the level
       and nature of concentrations and the associated risk to the institution, are
       implemented; and

      financial institutions should establish a risk management framework that
       effectively identifies, monitors, and controls CRE concentration risk.

In addition, FIL-22-2008, Managing Commercial Real Estate Concentrations in a
Challenging Environment, issued March 17, 2008, describes key risk management
processes for institutions with CRE concentrations. Such processes include maintaining
prudent, time-tested lending policies with a strong credit review and risk rating system to
identify deteriorating credit trends early and maintaining updated financial and analytical
information for borrowers. For example, institutions should emphasize global financial
analysis of obligors that includes analyzing borrowers’ complete financial resources and
obligations. The guidance further states that inappropriately adding interest reserves on
loans where the underlying real estate project is not performing as expected can erode
collateral protection and mask loans that would otherwise be reported as delinquent.

Loan Underwriting and Credit Administration

According to Premier’s 2007 examination report, management’s appetite for growth
created a culture that allowed for 100 percent financing and interest reserves for
purchasing and improving properties, resulting in no hard cash investment being required
of the borrower. Further, examiners identified loans where the repayments relied heavily
on gains from sales of other properties. Once the real estate market slowed, the
borrowers’ repayment capacity became severely impaired. These practices exposed
Premier to considerable market risk. Additionally, in 2006 and 2007, the Board and
management failed to perform adequate due diligence or institute adequate risk
management controls for out-of-territory participations it purchased. The weak practices
associated with the participations, coupled with the fact that out-of-territory participations
are inherently risky, added to the erosion of asset quality and the increases in adverse
classifications.

Further, although examiners found Premier’s loan policy to be acceptable, the policy
lacked sufficient guidance related to (1) the loan review program, (2) limits regarding
portfolio diversification, (3) limits for 100-percent financing and interest reserves,


                                              6
(4) non-amortizing loans, (5) participation loans, and (6) maximum exposure limits for
individual concentrations. In addition, examiners found instances where the bank was in
noncompliance with its loan policy, including not:

      Obtaining and reviewing current financial and income data;

      Properly obtaining and/or recertifying appraisals; and

      Ensuring that “borrowers demonstrate sufficient cash flow, liquidity, and net
       worth to support interest carry, and if necessary, principal reduction.”

Although the Board and management began to implement a more disciplined lending
culture in 2007, the changes did not keep the past-due and high level of nonaccrual loans
from negatively affecting the bank’s capital adequacy, earnings performance, liquidity,
and sensitivity to market risks.

Premier was also cited for being in apparent violation of, or contravention to, regulatory
requirements — another indication of weak risk management practices. Specifically, the
2006 and 2007 examination reports noted that Premier was in apparent violation of
Part 323 of the FDIC Rules and Regulations, Appraisals, which provides minimum
standards for all transactions that require the preparation of an appraisal by a state
certified or licensed appraiser. In addition, the April 2008 and April 2009 examination
reports cited Premier for apparent contraventions of Part 365 of the FDIC Rules and
Regulations, Real Estate Lending Standards, Appendix A, Interagency Guidelines for
Real Estate Lending Policies, which requires loans purchased or originated with loan-to-
values in excess of supervisory limits to be identified in bank records and the aggregate
amount reported to the Board quarterly.

Allowance for Loan and Lease Losses (ALLL)

The Interagency Policy Statement on the Allowance for Loan and Lease Losses (ALLL
Policy Statement) reiterates key concepts and requirements related to generally accepted
accounting principles and existing supervisory guidance. Specifically, the ALLL Policy
Statement requires that an institution’s process for determining the ALLL be based on a
comprehensive, well-documented, and consistently applied analysis of its loan portfolio
that considers all significant factors that affect collectability. That analysis should
include an assessment of changes in economic conditions and collateral values and their
direct impact on credit quality.

Premier’s ALLL methodology was consistent with the ALLL Policy Statement.
However, examiners determined that Premier did not make sufficient qualitative
adjustments to reflect current real estate market conditions and did not consistently
discount appraisals for impairments, which resulted in the ALLL being underfunded in
2007, 2008, and 2009. During the May 2010 examination, the Board voted to charge-off
all of the remaining items on Premier’s books that had been classified as losses during
this examination. Table 3 shows the ALLL amounts computed by Premier compared to
the amounts calculated by examiners between October 2006 and May 2010.


                                            7
Table 3: Premier’s Adversely Classified Assets and ALLL, 2006 to 2010
                                            Asset Quality
                                       (Dollars in Thousands)
                  Examiner Adversely Classified Asset Amounts             ALLL Amounts

                                                           Total                   Increase in
 Examination                                                            ALLL          ALLL
                  Substandard       Doubtful    Loss     Adversely    Computed     Computed
    Date                                                 Classified   by Premier       by
                                                           Items                   Examiners
 Oct-2006                  7,581            0        0        7,581        6,955             0
 Sept -2007              135,131        2,148    1,336      138,615       12,640         8,000
 Apr-2008                198,323       10,000    2,986      211,309       24,038        20,000
 Oct-2008                245,458            0    2,730      248,188       32,327             0
 Apr-2009                328,263       15,852    5,134      349,249       38,611         5,000
 Oct-2009                389,857       16,501    1,825      408,183       43,470         5,000
 May-2010                425,578       18,103   21,315      464,996       60,378             0
 Source: Examination reports for Premier.


Funding Strategy

The bank’s significant and rapid asset growth exceeded its capability to attract core
deposits, which resulted in an increased reliance on brokered deposits and wholesale
funding. When properly managed, non-core funding sources offer important benefits,
such as ready access to funding in national markets when core deposit growth in local
markets lags planned asset growth. However, non-core funding sources also present
potential risks, such as higher costs and increased volatility. According to the
Examination Manual, placing heavy reliance on potentially volatile funding sources to
support asset growth is risky because access to these funds may become limited during
distressed financial or economic conditions. As shown in Figure 3, Premier’s net non-
core funding dependency ratio was consistently higher than the dependency ratio of its
peer group. The net non-core funding dependency ratio is a measure of the degree to
which an institution relies on non-core funding to support longer-term assets (e.g., loans
that mature in more than 1 year). An elevated ratio reflects heavy reliance on potentially
volatile funding sources.




                                                8
Figure 3: Premier’s Net Non-Core Funding Dependency Ratio, 2004 to 2009

   Net Non-Core Funding Dependency   60


                                     50


                                     40
               Ratio (%)




                                     30


                                     20
                                                                          Premier
                                                                          Peer
                                     10


                                      0
                                          Dec-04   Dec-05   Dec-06   Dec-07    Dec-08   Dec-09
                                                               Year End

Source: UBPRs for Premier.


Premier also relied on capital injections to support growth. PBI funded capital through
offerings of holding company stock, issuance of trust preferred securities, and advances
on available borrowing lines. PBI’s issuance of trust preferred securities provided
$110 million in additional bank capital. PBI’s reliance on trust preferred securities to
fund Premier increased PBI’s financial leverage, making PBI less resilient to adverse
economic conditions.

By 2008, the bank’s serious and deteriorating loan quality problems and resulting drain
on earnings and capital began to affect the availability of brokered and borrowed funds.
Specifically, Part 337 of the FDIC Rules and Regulations, Unsafe and Unsound Banking
Practices, outlines restrictions on brokered deposits when an institution falls below Well
Capitalized. As discussed later in this report, Premier’s capital level fell below Well
Capitalized in 2009 and progressively worsened.

While Premier was still Well Capitalized, management began structuring the terms and
maturities of brokered deposits to control the bank’s exposure to such deposits.
Additionally, in 2009, management began to list Certificate of Deposit (CD) rates on the
Internet in order to increase non-brokered deposits. Although the Internet deposits did
not meet the regulatory definition of brokered deposits, those types of CDs are sensitive
to market interest rates and potentially subject to interest rate restrictions under Part 337.
Notably, the interest rate environment remained favorable and did not impede
management’s ability to maintain core deposit funding and attract Internet deposits.
Nonetheless, examiners characterized Premier’s liquidity position as deficient in the 2009
examinations. According to the examination reports, the bank’s liquidity position was
extremely vulnerable given the detrimental impact of the significant deterioration in the
bank’s asset quality on earnings, capital, and access to replacement funding.


                                                                     9
The FDIC’s Supervision of Premier

The FDIC and the MDF conducted timely examinations of Premier and monitored its
condition through periodic offsite analysis and contacts. The FDIC and state
examinations of Premier consistently identified key risks associated with its growth
strategy and increasing reliance on wholesale funding. Prior to 2007, the bank was
assigned satisfactory ratings, and neither the FDIC nor the MDF considered Premier to be
a cause for significant supervisory concern based on its solid financial condition.
However, supervisory concern increased in 2007 when the downturn in the real estate
market resulted in a dramatic rise in nonperforming assets and a considerable
deterioration in the bank’s overall financial condition. The FDIC and the MDF began to
downgrade the bank’s composite and component ratings in 2007, and the MDF imposed
an informal supervisory enforcement action. After the 2007 examination, the FDIC and
the MDF closely monitored Premier’s condition by conducting onsite examinations every
6 months. The increased supervisory attention led to further downgrades and the
issuance of a formal enforcement action in 2009. Despite Premier’s efforts to address its
deficiencies, the bank’s financial condition became critically deficient.

Recognizing that Premier’s financial condition and markets were generally favorable
during earlier examinations, the FDIC could have placed greater emphasis on Premier’s
increasing risk profile in 2006. Doing so may have resulted in downgrading the bank’s
supervisory ratings sooner and pursuing an informal enforcement action earlier. A more
proactive supervisory approach may have influenced the bank to curb its CRE and ADC
lending, increase its capital levels, and strengthen risk management controls before real
estate markets deteriorated. With respect to the issues discussed in this report, the FDIC
has taken a number of actions to increase supervisory attention to banks that have risk
profiles similar to Premier, including instituting a training initiative on forward-looking
supervision and issuing additional supervisory guidance on CRE and ADC
concentrations, appraisals, and funds management.

Supervisory History

Historically, Premier received composite “1” or “2” CAMELS ratings. Our review
focused on the FDIC’s and the MDF’s supervision of Premier between 2006 and 2010.
During that period, the FDIC and the MDF conducted seven onsite safety and soundness
examinations, exceeding the requirements of the FDI Act.4 Table 4 summarizes
Premier’s examination history from 2006 to 2010, including the supervisory ratings and
enforcement actions taken.




4
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, onsite examinations of every state nonmember bank at least once during each
12-month period and allows for 18-month intervals for certain small institutions (with total assets of less
than $500 million) if certain conditions are satisfied.


                                                     10
Table 4: Premier’s Examination History, 2006 to 2010
                                                        Supervisory
 Examination        Examination                                               Informal or Formal
                                        Agency            Ratings
  Start Date         as of Date                                                  Action Taken*
                                                          (UFIRS)
    10/2/2006         6/30/2006          FDIC             111221/1        None
    9/10/2007         6/30/2007          MDF              233332/3        Agreement dated 12/10/07
    4/07/2008         3/31/2008          FDIC             343432/4        Agreement still in effect
                                                                          Cease and Desist Order
   10/14/2008         9/30/2008          MDF              444543/4        (C&D) dated 2/17/09
   4/13/2009          3/31/2009          FDIC             554554/5        C&D still in effect
   10/19/2009         9/30/2009          MDF              555555/5        C&D still in effect
   5/24/2010          3/31/2010          FDIC             554545/5        C&D still in effect
 Source: Examination reports and enforcement actions for Premier.
 *Informal corrective actions often take the form of a Bank Board Resolution or a Memorandum of
 Understanding (MOU). Formal corrective actions often take the form of a C&D, Supervisory Directive, or,
 under severe circumstances, insurance termination proceedings. The agreement issued in 2007 by the
 MDF and the FDIC was similar to an MOU.

As part of the offsite review process, FDIC officials contacted bank officials to follow up
on risk trends. For example, in June 2007, several months prior to the MDF examination,
the FDIC’s offsite analysis of the March 31, 2007 Call Report prompted the FDIC to
contact Premier to discuss how the bank was monitoring its ADC exposure. Bank
management recognized that market conditions were beginning to negatively impact the
bank’s financial condition and that foreclosures were expected to increase. However, at
the time, Premier did not believe the impact would be significant because its risk was
spread across different markets. Nonetheless, given the bank’s size and deteriorating
condition, the FDIC decided to participate in the MDF’s 2007 examination. Thereafter,
the FDIC maintained regular communication with bank officials and participated in each
of the MDF’s subsequent examinations.

Supervisory Response to Key Risks

Prior to 2007, examination reports highlighted the risks associated with the bank’s
growth strategy and its continued reliance on non-core funding sources, including the
extent to which these risks made the bank vulnerable to adverse economic conditions.
However, examiners did not downgrade the bank until the downturn in the economy
affected the bank’s financial condition. In retrospect, a more forward-looking assessment
of Premier’s risk exposure in 2006 may have been prudent.

2006 Supervisory Activity

Premier received a composite rating of “1” in 2006, indicating no cause for supervisory
concern and weaknesses that were moderate and well within the capabilities and
willingness of the Board and management to correct. In hindsight, downgrades in the
bank’s Asset Quality and Management components may have been prudent.

The examination report stated that asset quality remained strong based on the low level of
adversely classified assets and past-due and nonaccrual loans, and examiners assigned


                                                   11
this component a “1” rating. However, the report identified a number of credit
underwriting and administration weaknesses and the potential downside of such
weaknesses. Examiners recommended that the Board strengthen its analysis and
monitoring of the CRE portfolio and the real estate lending section of its loan policy. Of
particular concern to examiners was the extent to which the bank allowed borrowers to
finance 100 percent of the costs associated with purchasing and improving properties and
the lack of specific limits for this practice.

The examination report stated that management’s performance and risk management
practices were strong relative to the bank’s size and risk profile and assigned a
Management component rating of “1.” Senior management was considered to be
proactive in identifying controls and procedures that could be improved. Further,
management actively evaluated the impact of various asset growth scenarios to maintain
capital at levels sufficient to keep the bank Well Capitalized. Accordingly, Capital was
assigned a “1” rating – meaning that the bank’s capital level was strong relative to its risk
profile. The examination report also stated that capital adequacy remained strong based
on capital injections provided by PBI which it funded through a combination of sources,
including stock offerings, trust preferred securities, and short-term borrowings. PBI
provided Premier over $60 million in capital injections between the 2006 and 2007
examinations. The examination report further stated that the Total Risk-Based Capital
ratio was managed very close to the 10 percent minimum required. As noted in a
subsequent April 2008 examination report, minimum regulatory capital ratios are
intended for well-diversified banks whose overall condition is fundamentally sound and
that have no material financial weaknesses. As discussed later, Premier may not have
fully exhibited these characteristics.

Although Premier relied on non-core funding, examiners generally found that Premier’s
bank liquidity levels and management practices were adequate prior to 2007.
Specifically, examiners noted that the bank had developed a diverse group of non-core
funding sources, established funding limits and guidelines for monitoring tools to address
the risks associated with each funding source, and had a written contingency funding plan
in place. Nonetheless, Premier’s liquidity prospects and costs were significantly
dependent upon its ability to maintain a financially strong institution.

According to the Examination Manual, the Asset Quality rating reflects the quantity of
existing and potential credit risk associated with the loan and investment portfolios. The
ability of management to identify, measure, monitor, and control credit risk is also
reflected in the rating. An Asset Quality rating of “1” indicates strong asset quality and
credit administration practices, identified weaknesses are minor in nature, and risk
exposure is modest in relation to capital protection and management’s abilities. Further,
a Management rating of “1” indicates strong performance by management and strong risk
management practices relative to the institution’s size, complexity, and risk profile.

In hindsight, downgrading the Asset Quality and Management component ratings and
Premier’s composite rating and/or pursuing an informal supervisory enforcement action
may have been prudent, taking into consideration Premier’s risk exposure in 2006.



                                             12
Specifically, Premier’s CRE and ADC concentrations were significant, management
promoted a liberal credit culture, examiners had identified risk management practices that
needed to be strengthened, and the bank was reliant on funding sources that were highly
dependent on management’s ability to maintain a financially strong institution.

Taking a more proactive supervisory approach in 2006 may have influenced the bank to
curb its CRE and ADC lending, increase its capital levels, and strengthen risk
management controls before real estate markets deteriorated. Further, an informal
enforcement action could have been used to require the Board to commit to a plan for
reducing the bank’s risk exposure. In light of Premier’s financial performance and
condition at that time, we recognize that the FDIC would have faced considerable
challenges convincing the Board and management that their strategy and practices were
creating unwarranted risk that needed to be constrained and mitigated.

2007 Supervisory Activity

The September 2007 examination was the first to identify deterioration in Premier’s
overall condition. Adversely classified assets increased from about $8 million to
$139 million since the previous examination. Examiners stated that a lack of adequate
oversight had contributed to the sharp increase in adverse classifications and that
management’s and the Board’s emphasis on rapid loan growth allowed for a liberal credit
culture. Further, examiners stated that a failure to address prior recommendations to limit
risky concentrations of credit reflected poorly on management. Accordingly, the MDF
downgraded Premier to a composite “3” rating. Financial institutions assigned a “3”
rating exhibit some degree of supervisory concern, are generally less capable of
withstanding business fluctuations, and are more vulnerable to outside influences. The
examination also resulted in examiners formally designating Premier as a “troubled”
institution subject to closer regulatory supervision.

Following the 2007 examination, the MDF and the FDIC entered an Agreement (similar
to an MOU) with Premier on December 10, 2007. The Agreement required the bank to,
among other things:

      Revise the structure of the loan approval process,

      Review and revise the loan policy,

      Restrict the use of interest reserves,

      Develop and implement a written plan to reduce the risk position of each loan
       relationship aggregating $1 million or more that had been classified in the 2007
       examination,

      Immediately reduce to zero the total amount of assets classified as loss in the
       2007 examination as well as reduce the total amount of loans classified as
       doubtful,



                                                13
      Correct loan documentation exceptions,

      Maintain the ALLL at a reasonable level in relation to the degree of risk inherent
       in the bank’s loan portfolio,

      Maintain Tier 1 Leverage Capital at a minimum of 7 percent of Total Assets,

      Develop and submit a 3-year strategic plan,

      Correct violations of law and regulations, and

      Develop a plan to monitor and control ADC concentrations.

The agreement also required Premier to advise the FDIC and the MDF in writing of the
bank’s actions to comply with each part of the Agreement.

2008 through 2010 Supervisory Activity

After the 2007 examination, the level of supervisory attention increased significantly, and
the FDIC and the MDF instituted a 6-month onsite examination cycle. The examinations
for 2008 through 2010 identified further deterioration in the bank’s financial condition.
For example, the April 2008 examination found the overall condition of the bank to
remain poor, resulting in a composite “4” rating, even though the bank had satisfied the
requirements of the Agreement except for the provision related to maintaining an
appropriate ALLL. Following the MDF examination in October 2008, a C&D was put
into place on February 17, 2009. The C&D included provisions to (1) conduct a
management study, (2) reduce the risk position in each relationship/asset aggregating
$1 million or more that was classified or listed for special mention in the October 2008
examination report, (3) strictly adhere to the loan policy, (4) maintain Tier 1 Capital at no
less than 8 percent of total assets and other capital ratios such that the bank remains Well
Capitalized, (5) restrict dividends and bonuses, and (6) require written plans to address
profits, contingency funding, brokered deposits, and ADC concentrations. The C&D also
required the bank to submit quarterly progress reports to the FDIC and the MDF.

The bank’s condition continued to decline, and the FDIC further downgraded the bank to
a composite “5” rating in April 2009. Premier’s composite rating remained a “5” at the
MDF’s October 2009 examination. Examiners found further deterioration in the ADC
portfolio and noted that management was unable to reduce the level of problem assets or
increase capital to levels commensurate with the bank’s risk profile. PBI was no longer
considered a source of strength because of its high debt levels. Examiners acknowledged
management’s efforts to comply with the C&D and employ contingent liquidity
strategies. In addition, the examination report stated that the bank hired experienced
personnel to manage a Special Assets Division created to resolve problem assets.
Nevertheless, by the May 2010 examination, the overall condition of the bank remained
critically deficient, and the bank’s continued viability was in serious jeopardy.




                                             14
Supervisory Lessons Learned

According to the Examination Manual, the quality of an institution’s management,
including its Board and executive officers, is perhaps the single most important element
in the successful operation of a bank. The Board has overall responsibility and authority
for formulating sound policies and objectives for the bank and for effectively supervising
the institution’s affairs. The Examination Manual further states that:

       …to effectively prevent serious problems in an institution, the conditions and
       circumstances that may lead to problems must be identified and corrected early.
       Corrective action should be taken immediately upon identifying excessive risk
       taking…when corrective action is not taken until conditions have deteriorated it is
       often too late to avoid failure. Moral suasion and informal agreements are
       normally sufficient where the unacceptable risk-taking is identified early, but
       formal action must be considered, even when an institution is rated 1 or 2, if
       circumstances warrant.

In hindsight, a more forward-looking assessment of Premier’s risk profile in 2006 may
have been prudent and led to downgrading Premier’s Asset Quality and Management
component ratings and possibly the composite rating. Such action may have led to an
informal action earlier and helped to curb the bank’s growth appetite sooner. Further,
such action would have reinforced supervisory expectations, increased supervisory
oversight, and required the Board to commit to a plan and a timeline for implementing
corrective actions at a critical time.

The perspectives gained from this bank failure are not unique to Premier. The FDIC has
taken a number of actions to increase supervisory attention to banks that have risk
profiles similar to Premier. Of note, in March 2010, the FDIC completed a training
initiative for its entire supervisory workforce that emphasizes the need to assess a bank’s
risk profile using forward-looking supervision. Further, FDIC regional officials stated
that they began to emphasize the basic tenet of prudent diversification and discuss
funding sources as part of regional training conferences and meetings with field offices
and territories in 2008. The FDIC has also issued updated guidance to examiners
regarding CRE loan examination procedures in view of more challenging market
conditions, particularly in ADC lending, and supervisory expectations for FDIC-
supervised institutions to update real estate appraisals and evaluations. The FDIC has
also issued updated guidance related to funding liquidity risk management.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital levels deteriorate. The purpose of PCA is
to resolve problems of insured depository institutions at the least possible long-term cost
to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations defines



                                             15
the capital measures used in determining the supervisory actions that will be taken
pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes
procedures for the submission and review of capital restoration plans and for the issuance
of directives and orders pursuant to section 38. The FDIC is required to closely monitor
an institution’s compliance with its capital restoration plan, mandatory restrictions
defined under section 38(e), and discretionary safeguards (if any) imposed by the FDIC
to determine if the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to Premier, the FDIC properly
implemented applicable PCA provisions of section 38. Table 5 illustrates Premier’s
capital levels relative to the PCA thresholds for Well Capitalized Institutions.

Table 5: Premier’s Capital Levels Relative to PCA Thresholds

                             Tier 1            Tier 1            Total                    Capital
    Period Ending           Leverage        Risk-Based        Risk-Based               Classification
    Well Capitalized
      Threshold            5% or more       6% or more        10% or more
         Dec-06               9.44             9.29              10.05         Well Capitalized
         Dec-07               9.94             10.41             11.66         Well Capitalized
         Dec-08               7.96             9.19              10.45         Well Capitalized
         Mar-09               6.68             8.00              9.27          Adequately Capitalized
         Jun-09               5.91             7.35              8.63          Adequately Capitalized
         Sept-09              4.93             6.20              7.49          Adequately Capitalized
         Dec-09               3.24             4.13              5.45          Undercapitalized*
         Mar-10               2.71             3.35              4.65          Significantly Undercapitalized
         Jun-10               1.49             1.90              3.20          Significantly Undercapitalized
         Sept-10              0.91             1.19              2.37          Critically Undercapitalized
Source: UBPRs and examination reports for Premier and Part 325 of the FDIC Rules and Regulations.
*When the bank filed its December 31, 2009 Call Report, the capital ratios placed the bank in the
Undercapitalized capital category. However, the bank amended its December 31, 2009 Call Report in April
2010, causing the bank's capital category to fall to Significantly Undercapitalized.

Following the October 2008 examination, the MDF sent a letter to Premier in
January 2009 reiterating that, given the bank’s deficiencies, a formal enforcement action
was imminent. As discussed earlier in this report, the February 2009 C&D included a
provision requiring the bank to maintain Tier 1 Capital at no less than 8 percent of total
assets and to maintain other capital ratios such that the bank would remain Well
Capitalized. Additionally, the C&D included a provision that required the bank to submit
a plan to reduce the volume of brokered deposits and develop a capital restoration plan if
the bank’s Total Risk-Based Capital ratio declined to 10.5 percent.

The FDIC’s efforts to monitor Premier’s capital position subsequent to the issuance of
the February 2009 C&D follows:

    May 21, 2009. The FDIC issued a letter to Premier, notifying the bank that it was
     Adequately Capitalized based on the March 31, 2009 Call Report. The letter



                                                  16
      reminded the bank of the requirements and restrictions regarding brokered deposits
      applicable to institutions that become Adequately Capitalized.

     November 17, 2009. The FDIC issued a letter to Premier, notifying the bank that it
      was Undercapitalized based on the September 30, 2009 Call Report. The letter
      reminded the bank of the associated restrictions under section 38, including
      restrictions on asset growth, acquisitions, new activities, new branches, dividends,
      other capital distributions, and management fees. The FDIC’s letter also reminded
      the bank that a written capital restoration plan was required by December 14, 2009.

     December 4, 2009. The FDIC granted Premier an extension to file the capital
      restoration plan until December 21, 2009.

     January 27, 2010. The FDIC notified Premier that its capital restoration plan, dated
      December 18, 2009, was unacceptable because the plan was based on assumptions
      that were generally not realistic or attainable. Accordingly, the FDIC informed
      Premier that, effective immediately, it was subject to all of the provisions of section
      38 applicable to Significantly Undercapitalized institutions.

     May 12, 2010. The FDIC issued a letter to Premier, notifying the bank that it was
      Significantly Undercapitalized based on the March 31, 2010 Call Report. The letter
      reiterated restrictions pertaining to Significantly Undercapitalized banks.

     July 15, 2010. The FDIC issued a letter to Premier, notifying the bank that it was
      Critically Undercapitalized based on the results of the May 2010 examination. The
      letter outlined further restrictions under section 38, including the fact that the FDIC
      was required to place the bank into receivership within 90 days of July 15, 2010,
      unless the FDIC determined that a different action was warranted.

Under section 38, the 90-day resolution period was scheduled to end on October 13,
2010. On October 8, 2010, DSC’s Director and the FDIC’s Acting General Counsel
granted a 30-day extension because a planned sale of the bank was unexpectedly
cancelled. Premier explored a number of strategic alternatives for raising capital,
including applying for funds under the Department of the Treasury’s Troubled Asset
Relief Program,5 but its capital-raising efforts were not successful. Ultimately, the MDF
took possession of Premier on October 15, 2010.


OIG Evaluation of Corporation Comments

The Director, RMS, provided a written response, dated May 12, 2011, to a draft of the
report. That response is provided in its entirety as Appendix 4 of this report. In the
response, RMS reiterated the OIG’s conclusions regarding the causes of Premier’s
failure. With regard to our assessment of the FDIC’s supervision of Premier, RMS’s

5
    The bank withdrew its Troubled Asset Relief Program application on March 11, 2009.


                                                    17
response discussed the number of examinations and visitations and the offsite monitoring
conducted between 2006 and 2010 described in the report. Further, RMS’s response
reiterated supervisory actions taken in response to the deterioration in Premier’s asset
quality and overall condition, which started in 2007. As discussed in the report,
supervisory actions included initiating a 6-month examination cycle and issuing a C&D
that included a provision requiring Premier to submit a plan to reduce the bank’s
brokered deposits. Further, RMS referenced guidance that the FDIC has issued to re-
emphasize the importance of robust credit risk-management practices for institutions with
concentrated CRE exposures and set forth broad supervisory expectations. RMS also
referenced FDIC guidance issued for institutions, such as Premier, with concentrated
CRE/ADC lending and reliance on non-core funding.




                                           18
                                                                             Appendix 1

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate Federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
by increasing the MLR threshold from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. The FDI Act requires that
the report be completed within 6 months after it becomes apparent that a material loss has
been incurred.

Our audit objectives were to (1) determine the causes of the Premier’s failure and
resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from November 2010 to March 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Premier’s operations from 2006 until its
failure on October 15, 2010. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the MDF examiners
         from 2006 to 2010.

        Reviewed the following:

              Bank data and correspondence maintained at the DSC’s Kansas City
               Regional Office and Columbia Field Office.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.




                                            19
                                                                               Appendix 1

                      Objectives, Scope, and Methodology


              Pertinent DSC policies and procedures and various banking laws and
               regulations.

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C., and the Kansas City Regional
               Office, Columbia Field Office, and St. Louis Field Office.

              DRR officials at the Dallas Regional Office.

              FDIC examiners from the DSC’s Columbia Field Office and Richmond Field
               Office who participated in examinations or reviews of examinations of
               Premier.

        Interviewed officials from the MDF to discuss the historical perspective of the
         institution, its examinations, and other activities regarding the MDF's supervision
         of the bank.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand Premier’s management
controls pertaining to the causes of failure and material loss as discussed in the body of
this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.




                                              20
                                                                             Appendix 1

                   Objectives, Scope, and Methodology


Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC’s Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum indicated that the OIG
planned to provide more in-depth coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions, and these reports can be
found at www.fdicig.gov. In addition, the OIG issued an audit report entitled, Follow-up
Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-010), in
December 2010. The objectives of the audit were to (1) determine the actions that the
FDIC has taken to enhance its supervision program since May 2009, including those
specifically in response to the May 2009 memorandum, and (2) identify trends and issues
that have emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, in May 2010, the OIG
initiated an evaluation of the role and federal regulators’ use of section 38, Prompt
Corrective Action and section 39, Standards for Safety and Soundness of the FDI Act in
the banking crisis.




                                            21
                                                                                 Appendix 2

                               Glossary of Terms

Term                                               Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development,     funding for acquiring and developing land for future construction and that
and              provide interim financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the institution’s
                 overall loan and lease portfolio will not be repaid. Boards of directors are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the allowance in accordance with the institutions’
                 stated policies and procedures, generally accepted accounting principles,
                 and supervisory guidance.

Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions
                 for preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.

Cease and        A C&D is a formal enforcement action issued by a financial institution
Desist Order     regulator pursuant to 12 United States Code (U.S.C.) section 1818 to a bank
(C&D)            or affiliated party to stop an unsafe or unsound practice or a violation of
                 laws and regulations. A C&D may be terminated when the bank’s
                 condition has significantly improved and the action is no longer needed or
                 the bank has materially complied with its terms.

Commercial       CRE loans are land development and construction loans (including 1-to-4
Real Estate      family residential and commercial construction loans) and other land loans.
(CRE) Loans      CRE loans also include loans secured by multifamily property and nonfarm
                 nonresidential property, where the primary source of repayment is derived
                 from rental income associated with the property or the proceeds of the sale,
                 refinancing, or permanent financing of the property.

Concentration    A concentration is a significantly large volume of economically related
                 assets that an institution has advanced or committed to a certain industry,
                 person, entity, or affiliated group. These assets may, in the aggregate,
                 present a substantial risk to the safety and soundness of the institution.




                                            22
                                                                                  Appendix 2

                                Glossary of Terms

Contingency       A written plan that defines strategies for addressing liquidity shortfalls in
Funding (or       emergency situations. Such plans delineate policies to manage a range of
Liquidity) Plan   stress environments, establish clear lines of responsibility, and articulate
                  clear implementation and escalation procedures. Contingency funding
                  plans should be regularly tested and updated to ensure that they are
                  operationally sound. DSC uses the term contingency funding plan and
                  contingency liquidity plan interchangeably.

FDIC’s            The FDIC’s supervision program promotes the safety and soundness of
Supervision       FDIC-supervised institutions, protects consumers’ rights, and promotes
Program           community investment initiatives by FDIC-supervised institutions. The
                  FDIC’s DSC (1) performs examinations of FDIC-supervised institutions to
                  assess their overall financial condition, management policies and practices
                  (including internal control systems), and compliance with applicable laws
                  and regulations and (2) issues related guidance to institutions and
                  examiners.

Federal Home      FHLBs provide long-and short-term advances (loans) to their members.
Loan Bank         Advances are primarily collateralized by residential mortgage loans and
(FHLB)            government and agency securities. Community financial institutions may
                  pledge small business, small farm, and small agri-business loans as
                  collateral for advances. Advances are priced at a small spread over
                  comparable U.S. Department of the Treasury obligations.

Financial         A financial entity engaged in a broad range of banking-related activities,
Holding           created by the Gramm-Leach-Bliley Act of 1999. These activities include:
Company           insurance underwriting, securities dealing and underwriting, financial and
                  investment advisory services, merchant banking, issuing or selling
                  securitized interests in bank-eligible assets, and generally engaging in any
                  non-banking activity authorized by the Bank Holding Company Act. The
                  Federal Reserve Board is responsible for supervising the financial condition
                  and activities of financial holding companies.

Global Cash       A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis     capacity to perform on a loan. During underwriting, proper global cash flow
                  must thoroughly analyze projected cash flow and guarantor support.
                  Beyond the individual loan, global cash flow must consider all other
                  relevant factors, including: guarantor’s related debt at other financial
                  institutions, future economic conditions, as well as obtaining current and
                  complete operating statements of all related entities. In addition, global
                  cash flow analysis should be routinely conducted as a part of credit
                  administration. The extent and frequency of global cash flow analysis
                  should be commensurate to the amount of risk associated with the particular
                  loan.




                                             23
                                                                                    Appendix 2

                                 Glossary of Terms

Interest Reserve An interest reserve allows a lender to periodically advance loan funds to
                    pay interest charges on the outstanding balance of the loan. The interest is
                    capitalized and added to the loan balance. Frequently, ADC loan budgets
                    will include an interest reserve to carry the project from origination to
                    completion and may cover the project’s anticipated sellout or lease-up
                    period.

Loan                The transfer of an undivided interest in all or part of the principal amount of
Participation       a loan from a seller, known as the “lead,” to a buyer, known as the
                    “participant,” without recourse to the lead, pursuant to an agreement
                    between the lead and the participant. “Without recourse” means that the
                    loan participation is not subject to any agreement that requires the lead to
                    repurchase the participant’s interest or to otherwise compensate the
                    participant upon the borrower’s default on the underlying loan.

Loan-to-Value       A ratio for a single loan and property calculated by dividing the total loan
                    amount at origination by the market value of the property securing the
                    credit plus any readily marketable collateral or other acceptable collateral.

Material Loss       As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                    Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                    period beginning January 1, 2010 and ending December 31, 2011, a
                    material loss is defined as any estimated loss in excess of $200 million.

Memorandum          An MOU is an informal agreement between the institution and the FDIC,
of                  signed by both parties. The State Authority may also be party to the
Understanding       agreement. MOUs are designed to address and correct identified
(MOU)               weaknesses in an institution’s condition.

Nonaccrual          A loan that is not earning the contractual rate of interest in the loan
Loan                agreement, due to financial difficulties of the borrower. Typically, interest
                    accruals have been suspended because full collection of principal is in doubt
                    or interest payments have not been made for a sustained period of time.
                    Loans with principal and interest unpaid for at least 90 days are generally
                    considered to be in a nonaccrual status.

Offsite Review      The FDIC’s Offsite Review Program is designed to identify emerging
Program             supervisory concerns and potential problems so that supervisory strategies
                    can be adjusted appropriately. Offsite reviews are performed quarterly for
                    each bank that appears on the Offsite Review List. Regional management is
                    responsible for implementing procedures to ensure that Offsite Review
                    findings are factored into examination schedules and other supervisory
                    activities.

Peer Group          Institutions are assigned to 1 of 15 peer groups based on asset size, number
                    of branches, and whether the institution is located in a metropolitan or non-
                    metropolitan area.




                                               24
                                                                                 Appendix 2

                              Glossary of Terms

Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the DIF. Part 325,
Action (PCA)     subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                 Regulations (C.F.R.), section 325.101, et. seq., implements section 38,
                 Prompt Corrective Action, of the FDI Act, 12 U.S.C. section 1831(o), by
                 establishing a framework for determining capital adequacy and taking
                 supervisory actions against depository institutions that are in an unsafe or
                 unsound condition. The following terms are used to describe capital
                 adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized.


Risk-Based       A “supplemental” capital standard under Part 325 of the FDIC Rules and
Capital          Regulations. Under the risk-based framework, a bank’s qualifying total
                 capital base consists of two types of capital elements, “core capital” (Tier 1)
                 and “supplementary capital” (Tier 2).

Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2(v), as
                 The sum of:
                    Common stockholder’s equity (common stock and related surplus,
                     undivided profits, disclosed capital reserves, foreign currency
                     translation adjustments, less net unrealized losses on available-for-sale
                     securities with readily determinable market values);
                    Non-cumulative perpetual preferred stock; and
                    Minority interest in consolidated subsidiaries.
                 Minus:
                    Certain intangible assets;
                    Identified losses;
                    Investments in financial subsidiaries subject to section 362, subpart E;
                     and
                    Deferred tax assets in excess of the limit set forth in section 325.5(g).

Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector.




                                            25
                                                                                 Appendix 2

                               Glossary of Terms

Trust Preferred   TruPs are hybrid instruments possessing characteristics typically associated
Security (TruP)   with debt obligations. Under the basic structure of trust preferred securities,
                  a corporate issuer, such as a bank holding company, first organizes a
                  business trust or other special purpose entity. This trust issues two classes
                  of securities: common securities, all of which are purchased and held by
                  the corporate issuer, and trust preferred securities, which are sold to
                  investors. The business trust’s only assets are deeply subordinated
                  debentures of the corporate issuer, which the trust purchases with the
                  proceeds from the sale of its common and preferred securities. The
                  corporate issuer makes periodic interest payments on the subordinated
                  debentures to the business trust, which uses these payments to pay periodic
                  dividends on the TruPs to the investors. The subordinated debentures have
                  a stated maturity and may also be redeemed under other circumstances.
                  Most TruPs are subject to a mandatory redemption upon the repayment of
                  the debentures.

Uniform Bank      The UBPR is an individual analysis of financial institution financial data
Performance       and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)     The report is produced by the FFIEC for the use of banking supervisors,
                  bankers, and the general public and is produced quarterly from Call Report
                  data submitted by banks.

Uniform           Financial institution regulators and examiners use UFIRS to evaluate a
Financial         bank’s performance in six components represented by the CAMELS
Institutions      acronym: Capital adequacy, Asset quality, Management practices,
Rating System     Earnings performance, Liquidity position, and Sensitivity to market risk.
                  Each component, and an overall composite score, is assigned a rating of 1
(UFIRS)
                  through 5, with 1 having the least regulatory concern and 5 having the
                  greatest concern.

Wholesale         Wholesale funding sources include, but are not limited to, Federal funds,
Funding           public funds, FHLB advances, the Federal Reserve’s primary credit
                  program, foreign deposits, brokered deposits, and deposits obtained through
                  the Internet or CD listing services. Financial institutions may use wholesale
                  funding sources as an alternative to core deposits to satisfy funding and
                  liability management needs.




                                             26
                                                                     Appendix 3

                              Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CD       Certificates of Deposit

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

MDF      Missouri Division of Finance

MLR      Material Loss Review

MOU      Memorandum of Understanding

OIG      Office of Inspector General

PBI      Premier Bancshares, Inc.

PCA      Prompt Corrective Action

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                     27
                                                                               Appendix 4

                     Corporation Comments
   _________________________________________________________



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                       Division of Risk Management Supervision

                                                                             May 12, 2011


TO:               Mark Mulholland
                  Deputy Assistant Inspector General for Audits

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          FDIC Response to the Draft Audit Report Entitled, Material Loss Review of
                  Premier Bank, Jefferson City, Missouri (Assignment No. 2011-005)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s (FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of
Premier Bank (Premier), which failed on October 15, 2010. This memorandum is the response of the
Division of Risk Management Supervision (RMS) to the OIG’s Draft Report received on April 18, 2011.

Premier failed due to the Board’s and management’s growth strategy focused on commercial real
estate (CRE) and acquisition, development and construction (ADC) lending and the lack of
effective risk management practices which left the bank vulnerable to degrading market
conditions. Growth was funded primarily by non-core deposits and a capital injection from
Premier Bancshares Inc. As the real estate market weakened in 2007, Premier incurred loan-
related losses resulting in reduced earnings and depleted capital. Efforts to diversify its portfolio
and raise additional capital to support safe and sound operations were unsuccessful.

From 2006 to 2010 the FDIC and the Missouri Department of Finance conducted six onsite risk
management examinations, three onsite visitations and on-going offsite monitoring. The 2007
examination findings warranted an increase in supervisory oversight and a six-month onsite
examination cycle was implemented. Examiners downgraded Premier as a result of the FDIC
2008 examination due to deficient asset quality and poor overall conditions. As a result of the
October 2008 examination, examiners issued a cease and desist order that included a provision
requiring Premier to submit a plan to reduce the volume of brokered deposits. The FDIC’s examination
of April 2009 found the bank in further decline and examiners downgraded Premier’s composite rating.

RMS issued Interagency Guidance on CRE Monitoring in 2006 and a Financial Institution Letter
to banks on Managing Commercial Real Estate Concentrations in a Challenging Environment in
2008 that re-emphasized the importance of robust credit risk-management practices
for institutions with concentrated CRE exposures and set forth broad supervisory expectations.
Additionally, RMS issued a FIL in 2009 on The Use of Volatile or Special Funding Sources by
Financial Institutions that are in a Weakened Condition for institutions, such as Premier,
with concentrated CRE/ADC lending and reliance on volatile non-core funding.

Thank you for the opportunity to review and comment on the Report.

                                                  28
